Ls
\

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Bits contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-157

EDWARD A. CANIGLIA,
Petitioner,
v.
ROBERT F. STROM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7671 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of October, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

eran] Konse.Q. oos Ondaaeb Ohl

‘Comm. Exp. September 5, 2023
Notary Public Affiant

 

40112
